<html>
<title> - EXAMINING EPA’S MANAGEMENT OF THE RENEWABLE FUEL STANDARD PROGRAM</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]


.   
                EXAMINING EPA'S MANAGEMENT OF THE 
                 RENEWABLE FUEL STANDARD PROGRAM

=======================================================================

                                HEARING

                               BEFORE THE

                     SUBCOMMITTEE ON ENERGY POLICY,
                      HEALTH CARE & ENTITLEMENTS,

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           DECEMBER 10, 2014

                               __________

                           Serial No. 113-158

                               __________

Printed for the use of the Committee on Oversight and Government Reform



[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                      
                      
                               ___________
                               
                               
                         U.S. GOVERNMENT PUBLISHING OFFICE
93-667                       WASHINGTON : 2015                         
                      
____________________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e186918ea18294929589848d91cf828e8ccf">[email&#160;protected]</a>  
                     
                      
                      
                      
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 DARRELL E. ISSA, California, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, JR., Tennessee       CAROLYN B. MALONEY, New York
PATRICK T. McHENRY, North Carolina   ELEANOR HOLMES NORTON, District of 
JIM JORDAN, Ohio                         Columbia
JASON CHAFFETZ, Utah                 JOHN F. TIERNEY, Massachusetts
TIM WALBERG, Michigan                WM. LACY CLAY, Missouri
JAMES LANKFORD, Oklahoma             STEPHEN F. LYNCH, Massachusetts
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
PAUL A. GOSAR, Arizona               GERALD E. CONNOLLY, Virginia
PATRICK MEEHAN, Pennsylvania         JACKIE SPEIER, California
SCOTT DesJARLAIS, Tennessee          MATTHEW A. CARTWRIGHT, 
TREY GOWDY, South Carolina               Pennsylvania
BLAKE FARENTHOLD, Texas              TAMMY DUCKWORTH, Illinois
DOC HASTINGS, Washington             ROBIN L. KELLY, Illinois
CYNTHIA M. LUMMIS, Wyoming           DANNY K. DAVIS, Illinois
ROB WOODALL, Georgia                 TONY CARDENAS, California
THOMAS MASSIE, Kentucky              STEVEN A. HORSFORD, Nevada
DOUG COLLINS, Georgia                MICHELLE LUJAN GRISHAM, New Mexico
MARK MEADOWS, North Carolina         Vacancy
KERRY L. BENTIVOLIO, Michigan
RON DeSANTIS, Florida

                   Lawrence J. Brady, Staff Director
                John D. Cuaderes, Deputy Staff Director
                    Stephen Castor, General Counsel
                       Linda A. Good, Chief Clerk
                 David Rapallo, Minority Staff Director

      Subcommittee on Energy Policy, Health Care and Entitlements

                   JAMES LANKFORD, Oklahoma, Chairman
PATRICK T. McHENRY, North Carolina   JACKIE SPEIER, California, Ranking 
JIM JORDAN, Ohio                         Minority Member
JASON CHAFFETZ, Utah                 ELEANOR HOLMES NORTON, District of 
TIM WALBERG, Michigan                    Columbia
PATRICK MEEHAN, Pennsylvania         JIM COOPER, Tennessee
SCOTT DesJARLAIS, Tennessee          MATTHEW CARTWRIGHT, Pennsylvania
BLAKE FARENTHOLD, Texas              TAMMY DUCKWORTH, Illinois
DOC HASTINGS, Washington             DANNY K. DAVIS, Illinois
ROB WOODALL, Georgia                 TONY CARDENAS, California
THOMAS MASSIE, Kentucky              STEVEN A. HORSFORD, Nevada
                                     MICHELLE LUJAN GRISHAM, New Mexico
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on December 10, 2014................................     1

                               WITNESSES

Statement of Ms. Janet G. McCabe, Acting Assistant Administrator 
  for Air and Radiation, U.S. Environmental Protection Agency         6

                                APPENDIX

Questions and Responses for the record...........................    30


   EXAMINING EPA'S MANAGEMENT OF THE RENEWABLE FUEL STANDARD PROGRAM

                              ----------                              


                     Wednesday, December 10, 2014,

                  House of Representatives,
      Subcommittee on Energy Policy, Health Care & 
                                      Entitlements,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:38 a.m., in 
room 2154, Rayburn House Office Building, Hon. James Lankford 
(chairman of the subcommittee) presiding.
    Present: Representatives Lankford, Meehan, Farenthold, and 
Speier.
    Also present: Representative Collins.
    Staff present: Will L. Boyington, Majority Deputy Press 
Secretary; Molly Boyl, Majority Deputy General Counsel and 
Parliamentarian; Joseph A. Brazauskas, Majority Counsel; John 
Cuaderes, Majority Deputy Staff Director; Adam P. Fromm, 
Majority Director of Member Services and Committee Operations; 
Ryan M. Hambleton, Majority Senior Professional Staff Member; 
Erin Haas, Majority Senior Professional Staff Member; Laura L. 
Rush, Majority Deputy Chief Clerk; Sarah Vance, Majority 
Assistant Clerk; Jaron Bourke, Minority Administrative 
Director; Kelly Christl, Minority Counsel; Chris Knauer, 
Minority Senior Investigator; and Katie Teleky, Minority Staff 
Assistant.
    Mr. Lankford. The committee will come to order.
    Without objection, the chair is authorized to declare a 
recess of the committee at any time.
    Let me give a quick update just on schedule, then I am 
going to slip into an opening Statement as well.
    As many of you may know, we have quite a few things 
happening on the Hill this morning, including a lot of 
discussion about the omnibus package that went online last 
night. Both of our conferences are actually very engaged in 
going back and forth on that, so we will have fewer people on 
the dais. So Ms. McCabe, you will have to do this 9 hour 
hearing with just the two of us. Sorry. We will walk through 
the questions, and we are both well prepared to be able to walk 
through this together on it, so that is what you will see on 
the dais, is we are coming in and out.
    I would like to begin by stating the Oversight Committee 
mission Statement. We exist to secure two fundamental 
principles: first, that Americans have the right to know that 
the money Washington takes from them is well spent; second, 
Americans deserve an efficient, effective Government that works 
for them. Our duty on the Oversight and Government Reform 
Committee is to protect these rights.
    Our solemn responsibility is to hold Government accountable 
to taxpayers, because taxpayers have the right to know what 
they get from their Government. We will work tirelessly in 
partnership with citizen watchdogs to deliver the facts to the 
American people and bring genuine reform to the Federal 
bureaucracy. This is the mission of the Oversight and 
Government Reform Committee.
    This particular hearing deals with the renewable fuel 
standards. Creation of the RFS in 2005 and substantial 
expansion in 2007 together represent what the U.S. Government 
has done to take an enormous step to regulate gasoline usage. 
However, when this law was written we were living in a 
different time: the United States had yet to undergo its 
current energy boom, which is spurred by advanced drilling 
practices. This was also before the recession and the reduced 
gas usage across the Country and increased CAFE standards, 
which pushed down the demand for gasoline.
    Much has changed since 2007, when then problems in the law 
had become acute and need to addressed. This is why I held a 
hearing on this issue in June 2013 in the same committee. 
According to the market observers, the U.S. fuel supply is 
right at what is called the blend wall. This is the level where 
added ethanol will make up more than 10 percent of the domestic 
fuel supply.
    This is not sustainable under current conditions in the 
American automobile market. Many auto makers will void 
warranties if motorists use this mixture, known as E15, in 
their cars because of the engine damage that it can cause. It 
can especially damage older cars, boat engines, and small non-
vehicle motors.
    In my home State of Oklahoma, consumers are worried about 
using gasoline containing ethanol. In fact, gas stations in my 
district will advertise the sale of zero percent ethanol 
gasoline, or will say 100 percent gas, to keep consumers at 
ease. It is a very in-demand product.
    The lack of consumer demand, if not outright hostility, to 
high ethanol blends makes it more and more difficult for fuel 
makers to deliver a product that will actually sell. This 
constriction of the markets makes fuel prices increase, causing 
economic damage.
    At the gas station down the street from my house, there is 
a gas pump there that has E85 marked on the tank, on the pump 
itself in a big logo and a big sign. But they don't sell E85 
anymore there. For several years they tried to and the product 
went stale in the gas tank underground, and eventually they 
just swapped it out and now they have two E10 pumps there and 
no E85, but there is still a big E85 sign left over from the 
residual from the more than $200,000 dollars that this station 
spent to put in that extra tank. It is a common issue that is 
happening around the Country, in my neighborhood and other 
places as well.
    Because the creation of the RFS was such a large 
undertaking and the authors of this law knew that predictions 
for the future gas usage might not come true, the EPA was given 
waiver authority to waive or suspend RFS requirements. This is 
the waiver as written: It may waive if there is inadequate 
domestic fuel supply or implementation of a requirement would 
severely harm the economy or environment of a State, a region, 
or the United States.
    We are all aware what EPA can do to help with this problem, 
and we went over that in depth in 2013 in that June hearing. 
Starting with our hearing, Christopher Grundler, Director of 
EPA's Office of Transportation Air Quality, subsequently 
appeared several times before Congress. Based on these 
appearances, I felt like we were making real progress. At his 
last appearance before Congress on this matter representing the 
agency, Mr. Grundler Stated, the truth is we have hit the 
ethanol blend wall. This appears to be a clear acknowledgment 
of the problem to me.
    Shortly before this Statement was made, in November 2013, 
the EPA announced, in its proposal for 2014, it would use its 
available authority to ratchet down the ever-increasing amount 
of renewable additives to our Nation's gasoline and pull us 
away from the blend wall. The 2014 quandary for ethanol, the 
final one, was scheduled to be released November the 30th of 
2013. We are now more than a year past that deadline. We have 
waited and we have waited to move from past proposed to final.
    Finally, about 3 weeks ago, in late November 2014, we 
received word on what EPA would do next on determining the RFS 
obligation numbers for 2014, a year that is almost gone. Mind 
you, we received this announcement with roughly 6 weeks left in 
the year of 2014. What did this announcement say? It said EPA 
would not issue its 2014 blending requirements until some time 
in 2015. We are now over 370 days late and climbing, and the 
year will be entirely gone before we get the requirements for 
the year that is already past.
    In addition to the problems with the 2014 numbers, this 
announcement means the 2015 numbers are already late as well. 
The statute requires that they are to be released by November 
the 30th of 2014.
    In addition to such an egregious delay being a violation of 
law that created the RFS program, the notion of receiving 
blending requirements for a fuel produced in 2014 in the year 
2015 is a little surreal.
    Clearly, we have a problem. Also, unfortunately, we are 
moving backward, not forwards. Ethanol mandates were created in 
the mid-2000's to help us produce energy domestically because 
it was assumed we were running out of oil. The decreased 
exports; now we are talking about increased exports from us. We 
also wanted to be able to have the RFS to have a cleaner 
environment.
    But, as Sierra Club and multiple other organizations have 
Stated, water usage has become a major problem in dealing with 
ethanol. There are also reports of increased ozone from ethanol 
use. It is not good for motorcycles and for boats, many cars, 
trucks, lawnmowers. This has become an issue that does need to 
be resolved not only in law at some point, but definitely in 
waivers in the meantime.
    That is why we are here to be able to talk about this. Glad 
Ms. McCabe is joining us today. General McCabe is the Acting 
Chief of EPA's Office of Air and Radiation. She also signed the 
order pushing the decision to 2015. I look forward to hearing 
about the EPA process. I know you are in process; we have had a 
long conversation about this. I look forward to sharing the 
process, knowing what the facts are, and knowing what we can do 
from Congress to make this better, and what we can do as a 
cooperative agreement between the executive branch and the 
legislative branch to be able to resolve this issue.
    With that, I recognize the very distinguished member from 
California, Ms. Speier, for her opening Statement.
    Ms. Speier. Mr. Chairman, thank you. Let me also say at the 
outset of this hearing to Senator-Elect Lankford how much I am 
going to miss him. He is really reflective of the kind of 
leadership I would love to see more of among my colleagues on 
the other side of the aisle. I have enjoyed working with you, I 
have enjoyed collaborating with you, and I am hopeful that this 
model will be one that we can see replicated among our 
colleagues in the future, because working together we can get 
so much more done. So I wish you great Godspeed as you move 
into the Senate and know that you are going to do very 
distinguished work there, as you have here in the House.
    Mr. Lankford. Would the gentlelady yield?
    Ms. Speier. I certainly will.
    Mr. Lankford. It has absolutely been my honor. And I hope 
the process that we have had together in our committee, which 
apparently today has run off our other members, but I hope the 
process that we have had on this committee sets an example. We 
can find a lot of things to be able to work on together, and I 
have really appreciated working on it and I appreciate you 
making those kind words, because my wife is in the audience 
today as well.
    Ms. Speier. Let's have her recognized.
    Mr. Lankford. So always nice to be able to have nice words 
while my wife is here. My wife Cindy is right over there.
    [Laughter.]
    Mr. Lankford. Thank you for those kind words. I yield back.
    Ms. Speier. So before we get further into the details of 
this hearing on renewable fuel standards, I want to take a step 
back and look at the big picture. There is a broad consensus 
among scientists that fossil fuel pollution has warmed the 
earth by more than a full degree over the past century, which 
has resulted in the sea rising by eight inches.
    This is not an abstract problem to my constituents on the 
San Francisco Bay Peninsula, with more than 110,000 people and 
$24 billion in property, and a major international airport at 
risk from rising seas.
    This is also not an abstract problem for people around the 
world, where 2014 is on track to be the hottest year on record. 
And climate change is not an abstract problem to the Pentagon, 
which has linked climate change to the potential for increased 
terrorist activity and other forms of violence.
    The Intergovernmental Panel on Climate Change confirms that 
the best way to limit the damage is to reduce greenhouse gas 
emissions and to start proactively planning for the impacts. In 
its latest report on mitigating the effects of climate change, 
which was released last week, the IPCC says that it is not too 
late to limit warming to tolerable levels, but that, to do so, 
the world must act now.
    The renewable fuel standard expanded by the Energy 
Independence and Security Act in 2007 is a bipartisan approach 
to confronting that problem. President George W. Bush said, on 
the day that he signed this act, ``Today we make a major step 
with the Energy Independence and Security Act. We make a major 
step toward reducing our dependence on oil, confronting global 
climate change, expanding the production of renewable fuels, 
and giving future generations of our Country a Nation that is 
stronger, cleaner, and more secure.''
    The RFS created a market for the advanced biofuel and 
cellulosic biofuel industry to innovate a better fuel for our 
cars. More than $5.7 billion has been invested in advanced 
biofuels. Unlike traditional corn ethanol, this industry is 
still in its infancy and it is relying on the RFS mandates to 
propel it to the next level.
    Along with this relatively new industry comes jobs. The 
ethanol industry has directly and indirectly created close to 
400,000 jobs. In my district, we have significant investment in 
the types of biotechnology that can drive a clean energy 
revolution. From new types of grasses to make cellulosic 
biofuel to genetically engineered algae that can grow diesel 
gasoline in vats, Bay Area companies are showing that advanced 
biofuels can be one of the ways to a cleaner future.
    Now, all this innovation is jeopardized by the EPA's 
failure to issue the 2014 renewable fuel standards. The EPA is 
required under statute to release these standards by November 
of the previous year, but has missed its deadline for each of 
the last 3 years.
    Today we are having this hearing because the EPA is not 
issuing 2014 standards at all. They are essentially telling 
biofuel manufacturers and gasoline refiners that they will just 
have to guess how much biofuel they should have made for 2014.
    Since there is no sign of a 2015 standard yet, the EPA is 
telling industry that they will just have to keep on guessing 
into the next year. This is no way to run a business and, 
frankly, no way to run an agency.
    I am glad the chairman called this hearing today, because 
these delays in setting RFS standards are creating market 
instability across the board, in the agriculture, renewable 
fuel, and gasoline industries.
    Today is an opportunity to find ways to move forward in a 
more productive manner on the RFS. I do not believe the answer 
is to throw away all the progress that the renewable fuel 
industry has made in reducing carbon emissions and driving 
technological innovation. But EPA has to do a better job if the 
RFS is to accomplish its goals.
    It is my hope today to impress upon the EPA the need to act 
swiftly and set the RFS for 2014, 2015, and 2016, and to 
consider exercising its authority in executing multi-year 
rulemakings for the RFS. EPA must acknowledge that it cannot 
continue with ever-increasing delays in RFS rulemaking and find 
solutions that will provide more certainty to the businesses 
that depend on them doing their jobs.
    I also think that Congress has to share some of the blame. 
In every case I can think of, Congress passes laws that require 
agencies to promulgate a rule just once. But the law 
establishing renewable fuel standards required EPA to issue a 
new rule every single year. And since the RFS came into effect 
in 2007, the EPA's budget has been stagnant and they have lost 
over 2,000 full-time equivalent employees.
    But I also do not want to lose sight of the larger picture. 
The United States is undergoing an unprecedented energy 
revolution. We have recently overtaken Saudi Arabia as the 
world's No. 1 oil producer. Energy security is important, but 
so is climate security. You can't drive on a road that is three 
feet underwater, no matter how cheap gas prices are.
    Fossil fuels might be more inexpensive and more accessible 
than ever, but burning ever-more oil and gas will burn us out 
of a livable planet. That is why the RFS, while flawed, is 
important. The development of advanced biofuels is one of the 
most important tools we have to achieving a safe climate for 
future generations.
    I look forward to hearing from EPA and Ms. McCabe about the 
barriers they face in implementing the RFS and how they plan to 
move forward and how we can be helpful to make sure you can do 
just that.
    With that, I yield back.
    Mr. Lankford. The members will have 7 days to submit 
opening Statements for the record.
    We will now recognize our first and only panel. Ms. Janet 
McCabe is Acting Assistant Administrator for the Office of Air 
and Radiation at the U.S. Environmental Protection Agency.
    Pursuant to committee rules, all witnesses are sworn in 
before they testify.
    Ms. McCabe, if you would please rise, raise your right 
hand.
    Do you solemnly swear or affirm the testimony you are about 
to give will be the truth, the whole truth, and nothing but the 
truth, so help you, God?
    [Witness responds in the affirmative.]
    Mr. Lankford. Thank you. You may be seated.
    Let the record reflect that the witness has answered in the 
affirmative.
    You have been through this before in this conversation. You 
know full well we would be glad to be able to receive your 
testimony. Your written testimony will be a part of the 
permanent record as well. If you would like to make any 
additional Statements, you are welcome to do that. You are 
recognized, Ms. McCabe.


  STATEMENT OF JANET G. MCCABE, ACTING ASSISTANT ADMINISTRATOR 
  FOR AIR AND RADIATION, U.S. ENVIRONMENTAL PROTECTION AGENCY


    Ms. McCabe. Thank you. Thank you, Chairman Lankford and 
Ranking Member Speier. I was going to say other members of the 
subcommittee, so I will in the right spirit.
    I very much appreciate the opportunity to testify on the 
renewable fuel standard program and the EPA's efforts to issue 
the most recent annual rule under the program that Congress 
established.
    Annual RFS rules for the past years have generally 
reflected the Energy Independence and Security Act targets. 
Since 2010, however, it has been necessary for us to lower the 
volume for cellulosic biofuel based on our projections for 
production in the coming year.
    In developing the proposed 2014 RFS volume requirements, we 
took market realities into account, including the lower 
production volume for cellulosic biofuels and a recent 
sustained decline in gasoline consumption as a result of 
improved vehicle fuel economy and other factors. We proposed to 
use authorities granted under the Clean Air Act to adjust the 
required cellulosic advanced and total volumes for 2014 below 
the target specified in the statute. We also proposed to 
maintain the biomass-based diesel volume requirement at 1.28 
billion gallons, 280 million gallons more than the Act 
specifies as a minimum.
    Our proposed rulemaking explained the need to reduce the 
cellulosic volume for 2014 and also considered the need to 
reduce the advanced and total volumes to account for the 
projected shortfall in cellulosic volumes. In that context, the 
proposal included a detailed discussion of what is known as the 
ethanol blend wall, which limits, at least in the short term, 
how much ethanol can be blended into gasoline given the 
existing vehicle mix and distribution infrastructure.
    In proposing the 2014 RFS standards, EPA sought to advance 
the broader goal of the RFS program to spur long-term growth in 
renewable fuels while taking account of the need to overcome 
the constraints that exist in the market and the fuel system 
today.
    The proposal generated significant comment and diverging 
views, particularly about how volumes should be set in light of 
lower gasoline consumption and whether and on what basis the 
statutory volumes for renewable fuels should be lowered. Most 
notably, commenters expressed concerns regarding the ability of 
the proposed approach to provide continued progress toward 
achieving the volumes of renewable fuel targeted by the 
statute.
    These issues are both very challenging and very, very 
important to the future of the RFS program, and we recognize 
that our consideration of them has delayed the issuance of the 
2014 standards. Accordingly, and as is Stated in the 
announcement we made on November 21st, EPA intends to take 
action on the 2014 standards in 2015, in the same timeframe we 
plan to take action on RFS standards for both 2015 and 2016. 
Issuing the rules every year has proven to be a significant 
implementation challenge, particularly in the last several 
years. Resolving the fundamental issues that we are facing as 
part of the 2014 standards, rulemaking should go a long way to 
enabling EPA to complete additional annual rulemakings on time.
    This Administration strongly supports the statutory goal of 
the RFS program to increase the production and the use of 
renewable fuels, particularly advanced biofuels, over time. We 
have paved the way for increased use of higher level ethanol 
blends, including by granting partial waivers for the use of 
E15 in 2001 in newer light duty cars and trucks. We have 
improved the quality, transparency, and efficiency of our 
petition review process for new biofuel pathways that can count 
under the RFS program.
    In September we updated our website to include new tools 
and resources that provide basic information quickly and easily 
for our stakeholders and to provide for a more user-friendly 
interface for petitioners to guide them through the process of 
getting approval for new biofuel pathways. We also developed a 
new efficient producer petition process that expedites the 
processing of certain types of petitions. Since September, we 
have approved nine of these efficient producer petitions, and 
these are examples of the type of work that continues under 
this program.
    EPA will continue to engage with our stakeholders and work 
in close consultation with the Departments of Agriculture and 
Energy as we move forward with completing the annual standards 
for 2014 and setting standards for 2015 and 2016. I want to 
emphasize that our intention is to put the annual standard 
setting process back on schedule.
    Again, I thank you for the opportunity to appear as a 
witness at this hearing, and I look forward to your questions 
and our discussion.
    Mr. Lankford. Thank you, Ms. McCabe. We are going to have 
just open dialog on the conversation here.
    Let me ask a quick question, or multiple questions, I 
guess, as you go through on this. When do you start actually 
preparing for the proposed new target? So if it is to be 
released for the 2014 by November the 30th of 2013, when do you 
start working on that?
    Ms. McCabe. Well, as has been noted here, in the past few 
years it has been more and more challenging for us to meet that 
deadline.
    Mr. Lankford. But when do you start working on that?
    Ms. McCabe. Well, we have staff who are working pretty 
continually on this program and paying attention to the 
information and the data that we are required to gather. That 
includes working with the EIA and getting projections on 
gasoline consumption from that agency. So there is no precise 
moment when people start working on a particular standard. 
Because this is an annual rulemaking, we are in pretty 
continual work.
    Mr. Lankford. So how many people work on that continually? 
What would be your guess? Is this three people, is this 10 
people? What is your best guess on the staff that work on that?
    Ms. McCabe. There are people who work on it full-time and 
there are people who work on it part-time.
    Mr. Lankford. So give us a ballpark.
    Ms. McCabe. There is a goodly number of people. Perhaps my 
colleague can help me here.
    Mr. Lankford. Take a good shot at it.
    Ms. McCabe. So within our Office of Transportation and Air 
Quality, there are about three or four people who work on the 
program full-time and an equal number who work on the program 
half-time. But I will note that there are staff in our Office 
of General Counsel also who work on this program and others who 
help.
    Mr. Lankford. And Office of Information and Energy 
Information? There are other people in other agencies also 
working.
    Ms. McCabe. Absolutely. And the Department of Agriculture 
and Energy as well.
    Ms. Speier. So it is not a lack of employees working on 
this in terms of not meeting the deadline?
    Ms. McCabe. No.
    Ms. Speier. So we can't say that it is because you have had 
a loss of staff?
    Ms. McCabe. No.
    Ms. Speier. All right. So you have enough staff.
    Ms. McCabe. Yes.
    Mr. Lankford. So what is the key issue there? When you say 
this is difficult, situations change. Obviously, we have 
approached a new time with the corn-based ethanol, that we have 
hit the limits there. With the biodiesels and everything else, 
that is a different story. Obviously, there are some new things 
happening with cellulosic advanced fuels. We get that.
    Ms. McCabe. Yes.
    Mr. Lankford. So we are trying to figure out the delay of 
over a year, why we are passing an entire year, and then we are 
going to set the totals for this year after this year is 
actually over. What would cause that if we had enough staff and 
this was predictable on what was happening, we could all see 
the trends that were occurring?
    Ms. McCabe. Well, in 2014 we faced two issues that we had 
not faced before, which have proven to be extremely 
challenging, and they are related, and you mentioned them both, 
Chairman Lankford, in your opening, and that is, as you know, 
in recent years we have had to address shortfalls in the 
production of cellulosic biofuels. We have done that through 
the waiver process.
    But in 2014, for the first time, we were facing the ethanol 
blend wall in a way that required us to find a way to address 
that. And, as you noted, we have several authorities in the Act 
for us to do that, and, as you know, we proposed to use the 
inadequate domestic supply waiver authority. Not everybody 
agrees with us that that is an appropriate interpretation of 
the statute or that that is the appropriate policy place for 
the agency to land in that rule.
    So 2014 proved to be the year where we were facing those 
quite challenging issues. We spend considerable time working 
with the stakeholders, many, many encounters with the 
stakeholders both at the staff level, at my level as well, 
trying to make sure that we fully understand the implications, 
what is going on in the market and what is the right outcome 
here, and also making sure that we understand our legal 
constraints and authorities and are applying those 
appropriately. So those two things have really been what we 
have been working on this year, and it proved to take longer 
than anybody would have liked.
    Mr. Lankford. Which has increased dramatically the 
volatility in the RIN's market, as everyone is kind of waiting 
to see what the targets are going to be, all the RIN's credits 
that are out there. And the concern is that volatility only 
increases. When you talk about an increase in the price of the 
RINs, that is a purely manmade, Government-driven problem on 
that market, which increases the cost to consumers.
    So as the price of gasoline goes down, we have the 
opportunity for it to go back up again not because of gasoline 
out there, but because of volatility created by lack of 
Government decisions. So this does affect the consumer 
directly, as well as just the predictability of the process and 
where we go from here.
    Go ahead.
    Ms. McCabe. We understand the importance of certainty. We 
also understand that there are a number of factors that go into 
the price of RINs, including the price for feedstocks and that 
sort of thing. But absolutely we understand the importance of 
certainty.
    Ms. Speier. So let's talk about the stakeholders. You have 
some very powerful stakeholders that are trying to pursue this 
in a manner that benefits them in particular, and then you have 
the threat of lawsuits. In fact, there is one, I believe, that 
has been already filed.
    Ms. McCabe. Yes.
    Ms. Speier. So how does that impact your rulemaking 
process? Is it the fear of litigation that is somehow impacting 
your ability to get this rule out?
    Ms. McCabe. No, it isn't the fear of litigation. We 
understood and understand that we have missed the statutory 
deadline and that subjects us to a legal action, so it was not 
that. The issues are the substantive issues that I have 
mentioned, and, as with any challenging and important 
rulemaking, we want to make sure we are fully working through 
the various issues that are brought to our attention, the legal 
arguments. We certainly want to make sure that we are confident 
in our legal authority and when we render a rule, because if we 
are challenged on it, as we expected we would be, and it is 
overturned, that is further uncertainty for the market. So we 
work very hard to make sure that all of our rules are on very 
sound legal basis.
    Ms. Speier. So we have to get this fixed. And while I 
understand that you are working very diligently at it, that you 
have enough staff to do it, it is still not giving me the 
confidence that we are fixing it. Would we be better served if 
it was a rule that was put in place for three to 5 years, 
versus one that you have to contemplate each and every year?
    Ms. McCabe. Well, Congresswoman, I really can't speak to 
the statute; that is not my job, to decide that.
    Ms. Speier. Well, it is your job to help us figure out how 
to make this work better.
    Ms. McCabe. Well, and we would certainly be happy to 
provide technical assistance to you as you start thinking about 
that. An annual rulemaking is a challenging thing to 
accomplish, but I will just emphasize that this year in 
particular, because of these sort of watershed issues of the 
blend wall and the waiver, this year has been particularly 
challenging. We do think that, in 2015, we will be able to 
resolve 2014, 2015, and 2016, as our notice Stated that we 
intended to do, in order to get the program back on track and 
get us over the hump of dealing with these fundamental issues.
    Mr. Lankford. So can I ask our obvious question? We were 
scheduled to get the 2014 numbers sometimes in 2014. That is 
not occurring. Now you are saying we are going to get the 2014, 
2015 sometime in 2015. Can you give us a date certain when this 
will be settled in 2015? Because we are talking about 2014 
settled in 2015; 2015, which is already late; and then trying 
to resolve 2016 to get that one on time, which would be 
terrific. And we will talk about the dynamics of 2016 and the 
waiver authorities and all those things in just a moment.
    But can you give us a date certain? And then I want to 
recognize we have some other members that have joined us as 
well for some questioning. But can you give us a date certain 
when this is going to be resolved?
    Ms. McCabe. I can't give you a date certain, Congressman, 
because rulemakings are not ones that I can----
    Mr. Lankford. So give me a month.
    Ms. McCabe. We will move as expeditiously as we can. We 
certainly----
    Mr. Lankford. So this could be 2016 before this comes out, 
and we will miss 2 years.
    Ms. McCabe. We are committed to getting these rules out in 
2015 and meeting our deadline for the 2016 volumes.
    Mr. Lankford. Well, let me just say my concern on it. My 
concern is that this is going to come out in time for November 
the 30th of 2015 to try to announce the 2016 time, and we are 
going to literally have 2 years in a row that we will not have 
anything sitting out there. Because to just say we will get it 
out in 2015 and be ready to go for 2016, that is November the 
30th of 2015. That is even more problematic and even more 
volatility. It cannot take that long to promulgate a rule when 
the proposed rule is already done. I don't understand how the 
proposed rule can be done for a year and it takes a year to 
work through the comment period.
    Ms. McCabe. We understand the importance of moving just as 
expeditiously as we can.
    Ms. Speier. All right, then why don't you give us a date?
    Ms. McCabe. I am not in a position----
    Ms. Speier. Well, I understand that, but you could have a 
goal that your employees can work toward. I mean, to just have 
this kind of ephemeral ``we will have it done some time in 
2015'' doesn't give the industry any confidence moving forward.
    Ms. McCabe. We are working on the steps that we will need 
to take, the time that that will take.
    Ms. Speier. That is gibberish, Ms. McCabe, I am sorry. Just 
be clear. What is your goal? Is it April, is it May? You have 
to have a goal that we can hang our hats on.
    Ms. McCabe. My goal is to have these programs done as 
quickly as we can in 2015. And when we have a schedule that we 
can let people know about, we will do that.
    Ms. Speier. Well, maybe, then, Members of Congress should 
introduce a bill to repeal it unless you have a rule out by a 
date certain. Will that be enough to encourage the actual 
issuing of that rule? I mean, I don't think we are asking for a 
lot here.
    Mr. Lankford. No, we are not.
    Ms. McCabe. We will certainly keep the committee informed.
    Mr. Lankford. Well, you have kept the committee informed 
for the past year, telling us it is coming, and that is the 
problem. We have heard for a year it is coming. It is coming is 
not enough.
    Let me recognize some other members here. Mr. Farenthold is 
here from Texas.
    Mr. Farenthold. Thank you, Mr. Chairman. Before I go on 
with my questions, I want to point out, in response to when are 
we going to get this information, my mother always taught me 
and I always grew up believing a promise isn't a promise unless 
there is a deadline, and I would really encourage you, even if 
you are not willing to share that deadline with the committee, 
at least share it with some employees and hold them 
accountable.
    We had a rather long and involved Republican conference, so 
I apologize for being late, and if I ask something that has 
already been answered, please bear with me.
    I did want to ask how does the EPA see the growing supply 
of domestic oil and gas, along with lower domestic 
transportation fuel prices, affecting the RFS?
    Ms. McCabe. One of the key issues in the RFS, as we look to 
try to implement rules that implement Congress's intent, is 
looking at the expectations of Congress and the expectations of 
fuel consumption that we get on a year-to-year basis from the 
EIA, and that has been a major factor in trying to determine 
how we set the volumes for the RFS. As we have noted, the 
consumption of gasoline is going down in the Country, and that 
has implications for how we implement the statute.
    Mr. Farenthold. Is the EPA taking into account any other 
diversions from traditional petrochemical products to corn or 
other biomass-based products? For instance, the water bottles 
we all drink from now, you are seeing a trend toward those 
being created, rather than traditional petrochemical-based 
plastics, being created from bioplastics, which is decreasing 
the demand for fossil fuels, increasing the demand for the 
biomass part. Is any of that taken into account and is there a 
possibility for perhaps getting RIN's credits for plastics 
manufacturing, for example, or other new technologies, moving 
away from petrochemical-based feedstock or raw materials and 
moving to biomass?
    Ms. McCabe. Well, Congressman, we are focusing on 
implementing what the statute requires us to do, which is to 
look at the expected production of specific kinds of 
transportation fuels and the development of new advanced 
biofuels that meet the requirements of the statute. So that is 
what we look at, looking forward, what is the expected 
production of cellulosic biofuel and advanced biofuel, and 
those sort of things.
    Mr. Farenthold. And can you tell me to what degree, if any, 
it is being taken into account the effect on food prices, 
particularly in developing countries, as agricultural acreage 
that could be devoted to producing corn fit for human 
consumption is diverted to creating corn--I use corn as an 
example, it could be any biofuel--is being diverted for biofuel 
away from food and, again, what effect that is having and how 
you all are considering it?
    Ms. McCabe. In the initial rulemaking that established the 
RFS program, there was an extensive study and there have been 
studies by other agencies on those sorts of issues, and that is 
all available and we would be happy to provide you more 
information if you would like it.
    Mr. Farenthold. I guess my concern, both with the food 
prices and the diversion into plastics and other manufacturing, 
we don't want to get caught in a hard rulemaking or hard law 
decisions, not taking into account new technologies and new 
development in the marketplaces, and I would be particularly 
interested in knowing what, if anything, Congress needs to do 
to take those into account or make sure that you guys are 
taking those into account. So if you could include that in what 
you are providing us, I would appreciate it.
    Ms. McCabe. Sure.
    Mr. Farenthold. Finally, I have two other quick questions, 
if you are OK, Mr. Chairman.
    So does the EPA still recognize the blend wall and some of 
the technology issues, as it did in the proposed rules in 
multiple hearings last year?
    Ms. McCabe. We do.
    Mr. Farenthold. And you testified last year before the 
Energy and Commerce Commission about liability concerns being 
one of the biggest hurdles with the penetration of E15. Has 
anything changed, technologically or otherwise, that would 
alleviate these concerns?
    Ms. McCabe. I am not aware of any new information on that. 
There is a range of opinions about the concerns with E15, and 
with respect to motor vehicles 2001 and newer, our information 
shows that there are not problems with using that fuel in those 
vehicles.
    Mr. Farenthold. All right, thank you very much.
    Mr. Chairman, thank you.
    Mr. Lankford. Mr. Meehan.
    Mr. Meehan. I thank the chairman and I thank the ranking 
member, an opportunity to sit again on a panel together.
    And I thank you, Ms. McCabe, for being with you here today. 
This is an important issue, and let me tell you a little bit 
about my district and the refineries that closed in my district 
until there were innovative companies who found a new and 
better way to take advantage of the fuel supply, including 
utilization of Bakken, among other kinds of things.
    Important to their retaining this significant job-producing 
piece in my district, they were also critical on numerous 
occasions, but when there were challenges like the storm, it 
was their presence which assured a fuel supply that kept New 
York City functioning. So the ability for these refineries to 
be operable has very real and genuine national security 
impacts.
    They are also facing, as all in the industry are, real 
economic pressures, but included among those pressures is the 
remarkable uncertainty which this particular policy impacts. 
And I know you appreciate that, but my problem is not only is 
the uncertainty that is associated with it, it is the fact 
that, in addition, we have speculation in this market. You are 
creating markets by your activity or your failure to act, and 
they don't care about the jobs in my district and they don't 
care about the availability of fuel; they care about the 
ability to make money on a hedge. And that does not serve our 
national interests, so what you do has a lot at stake.
    So let me ask you, if I may, a number of questions.
    When you are now setting the 2014 mandate, how are you 
going to be doing this when you still have variables that are 
somewhat uncertain with both the transportation fuel consumed 
and the renewable fuel consumed? I mean, all this speculation 
is around things that you are trying to predict with some 
degree of uncertainty. How are you going to do that and give us 
some degree of certainty?
    Ms. McCabe. Well, Congressman, with respect to 2014 and 
moving forward with 2014, we recognize the calendar and that we 
are significantly through the calendar year 2014 and that, as 
we have said, we intend to finalize this rule in 2015. So we 
will be all the way through the calendar 2014 year, and we will 
clearly take the fact of the calendar and the history that has 
occurred in 2014 in making a determination about final 2014 
volumes.
    Mr. Meehan. So I mean, to a certain extent, then, you will 
be able to use actual numbers with regard to 2014.
    Ms. McCabe. That is correct.
    Mr. Meehan. But the problem is every time we delay, and I 
know this is some of what my colleagues are getting to, you are 
into the next year's obligation. So is it your intention to 
rely on 2014 or are we going to blend 2014, 2015? How do you 
handle the uncertainty about looking at future predictions as 
being part of it? Do you expect that you will include parts of 
both not only what past history has shown, but what you expect 
in the future? And what authority do you have to do both?
    Ms. McCabe. We expect to set annual volumes for the 
individual years based on appropriate data for each of those, 
and that will be different. And we intend, as I have said, by 
issuing the 2016 rule in 2015, to get the program back on track 
so that refines and all other stakeholders will have the 
certainty that the statute calls for.
    Mr. Meehan. So you do expect that there will be some degree 
of certainty.
    Ms. McCabe. Yes.
    Mr. Meehan. How do you respond to the concern I raised 
about speculation in the market and should you be involved in 
allowing that kind of, you know, these RINs and other kinds of 
things, you appreciate the dramatic escalation in the cost of a 
RINs. And because you have this on the refiner, and not a 
blender, because it is unique to the refiner and it starts to 
create remarkable spikes in the cost, it has a genuine impact 
on the bottom line. So my concern, then, is, with respect to 
that impact, how do you address that and the speculation?
    Ms. McCabe. Well, as I have said, there are a number of 
factors that affect RIN prices, and that is a tradeable 
commodity and not a market that is controlled by EPA.
    Mr. Meehan. No, it is not controlled, but it is almost 
uniquely influenced.
    Ms. McCabe. Our actions, I agree, have impact on the 
market, as do other things as well. Our information actually, 
Congressman, is that the vast majority of trading that is going 
on in the system is between the refiners and the blenders and 
reflects their anticipation and the cost that they are 
experiencing.
    Mr. Meehan. Mr. Chairman, I have other questions, but I 
don't want to monopolize, so I would be glad to come back to 
some other questions.
    Mr. Lankford. No, be glad to, Mr. Meehan. We are opening 
up, this is a free-flowing conversation based on our panel and 
the topic, and a conversation that all of us want to be able to 
have on the same issue.
    Mr. Lankford. Can I ask a question?
    Mr. Meehan, feel free to be able to jump in at any time as 
well.
    The issue is you have mentioned a couple times and alluded 
to that EPA is looking to see what they can do to spur growth 
in this. I would assume that means increased usage of ethanol. 
Is that what you mean, to use more ethanol in our system?
    Ms. McCabe. The key objective of the statute was to focus 
on the increased development and use of advanced biofuels which 
have the most benefit for energy, security for the greenhouse 
gas reduction. So a focus of the statute, as you can see 
looking at the volumes, is to increase the volumes of advanced 
and cellulosic biofuels, and a lot of our focus----
    Mr. Lankford. But the uncertainty right now is based on 
corn-based ethanol, though, am I correct? Right now, because 
you have hit this unique year, not based on those. Those, you 
already know how to deal with. This delay is based on the other 
area, am I correct?
    Ms. McCabe. Right. When you hit that blend wall and you 
have saturated the 10 percent market there are ways to use 
additional ethanol in the system.
    Mr. Lankford. Correct. OK, so give me an example.
    Ms. McCabe. E15 and E85 are two ways to do that, and, as I 
said, we are in touch with the stakeholders significantly to 
understand how those fuels are moving, and we are seeing some 
gradual increases in it.
    Mr. Lankford. So I guess my question is we have this number 
that was an arbitrary number set by Congress, now almost 10 
years ago, anticipating increased gasoline usage across the 
Country that now we don't have increased gasoline usage across 
the Country, have a decline of that based on CAFE standards and 
the economy and everything else. So we all know that fact.
    But EPA is committed to try to figure out how we can just 
use more ethanol anyway, rather than try to hit the waiver and 
say the intent of Congress was that we would match up ethanol 
with gasoline usage. We have less gasoline usage, but we want 
to continue to use more ethanol anyway. Is that what you are 
saying? When you talk about spurring usage, I am trying to 
figure out why.
    Ms. McCabe. We are trying to implement the statute as best 
we can.
    Mr. Lankford. But you want back to the intent, though. The 
intent of it wasn't to increase ethanol usage, it was energy 
independence. If we are using less energy as a Country, why is 
the intent to try to continue to use more and more ethanol 
anyway?
    Ms. McCabe. The intent is to do our best to meet Congress's 
statutory----
    Mr. Lankford. So you need clarity from Congress in a piece 
of legislation on what this would be to be able to help you in 
this decision.
    Ms. McCabe. We need to look at the information; we need to 
keep in mind the purposes of the statute; we need to look at 
our legal authorities and apply those appropriately.
    Mr. Lankford. Well, let me ask one more question. I don't 
want to hog this conversation as well, but you mentioned 
earlier about past 2001 vehicles. EPA has Stated that past 2001 
vehicles can use the E15.
    Can I have a slide come up there dealing with just the gas 
cap? I want to be able to show.
    [Slide.]
    Mr. Lankford. This is something Mr. Grundler and I had a 
long conversation on as well. Most vehicle warranties will be 
void if they use the E15. This is a picture of a gas cap from a 
2013 Toyota. Now, this same gas cap is used for Toyota and for 
Lexus vehicles. It clearly States do not use the E15. It is not 
just E85; don't use the E15. Most manufacturers will State they 
will void your warranty if you use it.
    I also have another chart here that shows the manufacturers 
that can use the E15.
    [Slide.]
    Mr. Lankford. This shows a list of all manufacturers, those 
that have said they would recommend usage of E15. And you will 
see the years, beginning with 2001 all the way to 2014. The 
greens or the yellows note that they would be OK with it, that 
they have at least some models that are OK with using E15. Now, 
this is a real point of contention with EPA we have bumped into 
several times. EPA continues to say we have checked; 2001 and 
on is fine. But the actual owner of that vehicle, if they use 
it, lose their warranty in that area.
    Now, I don't think EPA is willing to go ahead and cover any 
costs of repairs, and the American taxpayer most definitely is 
not willing to cover those repairs for vehicles because their 
warranty was voided. This is a big issue for us. So when we 
talk about pushing more E15, the manufacturers of the vehicles 
are saying, don't do it to the consumer and EPA is telling the 
consumer, you are going to have to do it because we have this 
arbitrary goal we are not willing to do a waiver on that we 
have the statutory to do the waiver on, but we are choosing not 
to, so you are going to use more E15 whether your car wants it 
or not, but whether you want to buy it or not. That is a 
problem.
    Ms. McCabe. If I can respond, Congressman.
    Mr. Lankford. Sure.
    Ms. McCabe. We have proposed to use the waiver. We are not 
requiring, through this rule, for any consumer to use any 
particular type of gasoline. In fact, our job in estimating and 
predicting the volumes and setting the volumes, takes into 
account what is happening in the market. And you reflected, I 
think, the limited number of E15 stations.
    Mr. Lankford. Right. E85.
    Can you go two slides forward, there, I think? Let me show 
you this, too.
    [Slide.]
    Mr. Lankford. This is the station down the street from my 
house. You can see the pump is clearly marked this is an E85 
pump, but you can look on the actual handle there, there is no 
E85 sold there anymore. And when I talked to the owner of that 
station, he said we couldn't sell the E85 gas; we spent 
$200,000 putting in tanks and the gas would go stale because 
there wasn't enough demand for it. So now they have just 
shifted to two E10's and he is very concerned that he is going 
to be pushed to have an E15 as a requirement to be there as 
well.
    If you go back one slide there as well.
    [Slide.]
    Mr. Lankford. This is what they sell now, and that is 
frequent; that was taken last weekend down the street from my 
house. By the way, I want to brag at $2.21 gasoline prices in 
my neighborhood as well.
    Ms. Speier. Just add another one and that is what it is in 
my neighborhood, $3.21.
    Mr. Lankford. It is $20.21 in San Francisco?
    [Laughter.]
    Mr. Lankford. So this unique challenge that not only the 
consumer is facing, that the blenders are facing and the 
refiners are facing, but also every single small gas station 
around the Country is also facing, what are we about to be 
required to do to hit a target that, yes, is a statutory 
target, but EPA was given waiver authority for just an occasion 
just like this so it doesn't cause every station to spend 
$200,000 on new tanks to hit an arbitrary total to help us hit 
energy independence when it is not needed.
    Ms. McCabe. That is exactly why we proposed the waiver. It 
is why we have been working----
    Mr. Lankford. But not finalized it.
    Ms. McCabe. But not finalized it yet.
    Ms. Speier. Let me just point out that the high performance 
cars at NASCAR use E15 gas, for what it is worth, so there is 
some value in encouraging the auto manufacturers to make 
vehicles that can accommodate E15 gas.
    But I would like to go back to something you said earlier, 
Ms. McCabe, and ask unanimous consent that we put into the 
record Statements by the Advanced Biofuels Association, the 
Algae Biofuel Organization, Biotechnology Industry 
Organization, and the National Biodiesel Board into the record.
    Mr. Lankford. Without objection.
    Ms. Speier. I am going to read from a Statement from the 
Advanced Biofuels Association. ``At this point, we suggest 
that, at a minimum, the EPA should move expeditiously to post a 
new cellulosic RIN value for the 2015 calendar year, which we 
have been waiting for for nearly 2 years. It is absurd that the 
current corn RIN is valued above the cost of RINs for the 
cellulosic pool. The way this program is being run today, we 
are effectively regressing, providing price supports only to 
those fuels that are already at full scale production at the 
expense of the advanced fuels that Congress intended to develop 
when it enacted the RFS2 program.''
    So you said earlier that you wanted to, indeed, expand the 
use of advanced biofuels, and that is part of the charge of the 
legislation. And yet you have this pent-up demand from all of 
these companies and, as I understand it, there are some 30 new 
biofuel pathways that have been awaiting agency review and 
approval for over 2 years, and they still can't get an answer. 
I mean, this is no way to run an agency, and certainty is one 
of the hallmarks of businesses being able to succeed. I mean, 
we are going to kill off the goose that could lay the golden 
egg if we don't start acting more expeditiously.
    Would you please respond to that?
    Ms. McCabe. Yes, certainly. We agree that encouraging and 
providing a path forward for innovative and new renewable fuels 
is absolutely an intent of the statute and----
    Ms. Speier. OK, I understand that. I believe you, but what 
are you doing about it? They have been waiting for 2 years.
    Ms. McCabe. Yes.
    Ms. Speier. What is it going to take?
    Ms. McCabe. We undertook, over the course of the summer, a 
total re-look at our process for reviewing applications for 
pathways approvals, which we finalized in September, so we have 
completely redone the information that we lay out so that 
people can bring us applications that are ready to be 
processed. So we have created a streamlined approach for what 
we call these efficient producers.
    And as I mentioned in my opening Statement, since we 
finished that re-look at the process, we have signed off on 
nine of those pending applications. So we agree with you that 
moving these things through promptly is important; that is why 
we undertook a re-look of our process, and we have seen the 
results of being able to move things through quickly.
    Ms. Speier. So why are all of these Statements, then, 
suggesting that there is no action?
    Ms. McCabe. I am not familiar with the Statements, 
Congresswoman, so I don't know, but this is a relatively new 
adjustment and changes to our process. They may not be aware of 
the changes that we have made, but we are now able to process 
things more quickly and to help people who want to come to us 
with applications know better what they need to put in their 
applications so that we will be able to process it promptly 
when it comes in.
    Ms. Speier. So for the 30 applications that have been 
pending, or pathways, I should say--I don't know how many 
applications are pending--should they resubmit under this new 
streamlined program that you have created?
    Ms. McCabe. Well, each one would be in a different 
situation, and our staff is certainly available to work with 
anybody who has a pending application to help them know whether 
there is additional information that should be submitted. I 
don't think we are asking people to start all over again, but 
these changes is speeding up and freeing up the entire system 
for us to be able to take a look at all the ones that we have 
and the ones that continue to come in.
    Ms. Speier. All right, thank you.
    Mr. Lankford. Before I recognize Mr. Meehan, can you define 
quickly for me? You said this is moving more quickly. What does 
that mean for someone that is in this process? How many weeks, 
how many months will it take for them to go start to finish?
    Ms. McCabe. You know, I don't have that information, 
Congressman. I would be happy to----
    Mr. Lankford. Give us a guess. Is this a 2-year process, is 
this a 90-day process?
    Ms. McCabe. It really depends on the particular 
application. There is a whole range of pathways that people 
bring to us. Some of them are very complex, some of them are 
much more straightforward in terms of being similar to other 
things that we have seen. So there is not a standard.
    Mr. Lankford. So the struggle that we would have here is to 
define quickly, then, and to say this process has changed. How 
much faster is it now than what it used to be?
    Ms. McCabe. We can provide those numbers for you, 
Congressman.
    Mr. Lankford. Please do.
    Ms. McCabe. But I can tell you that we have approved nine 
here in the last 2 months, and that is certainly more than in 
the months that I have been----
    Mr. Lankford. But those nine that have been approved, when 
did they start in the process?
    Ms. McCabe. I don't know that.
    Mr. Lankford. The definition of quickly is when you are on 
the other side of the desk waiting to get an answer, rather 
than this hit my desk, but it was actually on someone else's 
desk before and was on someone else's desk before. So the 
challenge is trying to figure out, start to finish, when they 
start the process, when are they getting approval.
    Ms. McCabe. We would be happy to provide you with more 
information on that.
    Mr. Lankford. Please do.
    Mr. Meehan.
    Mr. Meehan. Thank you, Mr. Chairman. I want to sort of 
followup, and it may not be exactly the same issue, but I think 
it is the same genuine general concern, and it is trying to 
understand how you make some of these decisions and then what 
we can do to assist you, if we need to, in expedited activity.
    I articulated the concern about having small refiners. How 
do you deal with those who are petitioning for some kind of 
relief under what may be rulemaking that you do? Do you use 
criteria to determine whether a small refiner may have a reason 
why they would be enabled to not have to abide by the same 
standards as perhaps a much larger refiner?
    Ms. McCabe. You are referring to the petition process for 
small refiners to get waivers.
    Mr. Meehan. Yes.
    Ms. McCabe. We work with the Department of Energy, as we 
are required to, on evaluating any of those and, yes, there is 
a set of criteria that relate to that particular refiner's 
situation that we would look at.
    Mr. Meehan. What are those criteria?
    Ms. McCabe. If you give me a minute, I will find them.
    Mr. Meehan. If you are able to get it real quickly.
    Ms. McCabe. I have them here.
    Mr. Meehan. OK, thank you.
    Ms. McCabe. So these are the kinds of things, and the 
Department of Energy developed these metrics back in 2011 for 
this purpose, so they are things like access to capital and 
credit, other business lines besides refining and marketing, 
local market acceptance of renewable fuels, the percent of 
diesel----
    Mr. Meehan. OK, so you look at those other kinds of 
factors, but, in effect, you are tying it back to some sort of 
parent company responsibility that influences that kind of a 
determination?
    Ms. McCabe. Well, the Department of Energy and we, 
together, look at these factors, but we look at the particular 
company that is asking for the petition. They are asking for 
the waiver in light of their particular circumstance.
    Mr. Meehan. And that is the question, and I should be 
careful, because I am not, but I am looking at a bottom line 
problem in which I have an industry which really isn't in the 
refining business, but they have made a particular effort to 
see if they can help control the greatest driver of their 
costs, which is fuel.
    And the unique circumstance they face is, after having 
found a way to deliver a product to market for them and the 
rest of the aviation fuel industry, that has saved the jobs, 
because they found a way to produce this product at a 
competitive price, until you introduce RINs, and then, 
suddenly, I have this artificial market that is completely 
influencing the bottom line of this refinery, and the thing is, 
well, we will just get out of that line of work. It is not a 
vertical organization; this is a product which has been 
utilized to support something in an industry.
    So when you are looking at the larger industry, why should 
the activities in a completely different area be influencing 
the decisions that are made about a unique part of the issue, 
which is refining unto itself, as opposed to what the rest of 
the capital of an organization is?
    Ms. McCabe. Well, Congressman, I wasn't involved in the 
development of these criteria, so I can't speak to them 
specifically, but we would certainly be happy to followup with 
you with any questions related to----
    Mr. Meehan. Well, I am particularly interested in, as we 
are looking through the concept of hardship petitions and 
meaningful response to the petitions. And I appreciate, then, 
if you are working with the Department of Energy.
    Let me ask one other question about this area, because, 
again, it goes back to the supply of RINs, and you have within 
your authority the issue to look at inadequate domestic 
supplies of certain things. How do you make those calculations? 
How are you moving along on that process and how do you 
calculate whether there is an adequate supply of RINs?
    Ms. McCabe. That really goes to the heart of the matter and 
the responsibility that we have in setting the volumes for a 
given year, in particular now that we are experiencing the 
blend wall issues that we are experiencing. So we look hard and 
try to gather the best information that we can from EIA and 
other agencies and the industry, as well, to get as good a 
sense as we can get about what reasonable expectations are, 
what growth expectations are, and then try to make sure that we 
are doing the best job that we can to balance and make good 
assessments about those judgments. As the history of the 
program has shown, the development and production has not moved 
along as quickly as Congress anticipated, so that particular 
inquiry is quite a challenging one.
    Mr. Meehan. Well, some of it is because of the nature of 
the market itself. I mean, some of this is counterproductive. 
They are not moving because they said the market doesn't exist 
for the fuel that people are being required to generate. And 
what is frustrating to me is somebody who cares about our 
environment, in the end, in order to produce these, the overall 
carbon impact is even larger. It is counterintuitive that we 
are driving forward with this for a variety of different 
reasons, including the carbon footprint of the overall impact 
of what we are doing.
    Ms. McCabe. Well, I think one encouraging thing, 
Congressman, is that we do see growth in advanced fuels and in 
cellulosic fuels. And as the Congressman noted, there are 
companies out there coming up with processes, coming up with 
innovative processes, and we do very much want to encourage all 
of that.
    Mr. Meehan. Is it growth? I mean, is it growth that is 
being shoe-horned in by virtue, because I know it is Hobbesian 
choice. I would love to see the continuing development of some 
of that, but at what point in time? Is it growing because it is 
being supported and pushed into something, as opposed to being 
able to actually be accepted in the market?
    Ms. McCabe. Well, I think that there are smart and 
innovative companies out there that, for a variety of reasons, 
are motivated to move forward with these exciting businesses 
and new processes, and there is a lot of ingenuity out there 
that results in all the petitions that we have for the requests 
for pathway approvals that we have pending.
    Mr. Meehan. Well, there is, and I actually have visited 
very similar things and am impressed by them and want to see 
them, but, again, I want to make sure that the carbon 
footprint, again, is one aspect of things and the competitive 
nature to make sure----
    Ms. McCabe. Yes.
    Mr. Meehan. All right. Well, I want to thank you. I would 
like to see if we can, on the staff side, followup on some of 
the more particular questions with respect to the hardship 
petitions and things of that nature.
    Ms. McCabe. Absolutely.
    Mr. Meehan. So I thank you for your work in this area.
    Ms. McCabe. We would be glad to do that.
    Mr. Lankford. Mr. Collins.
    Mr. Collins. Thank you, Mr. Chairman.
    I am sitting here listening, and one of the frustrating 
things of being in this committee, and I appreciate the 
chairman's question actually coming from yesterday, what is 
quickly. I never thought we would have to define quickly. 
Yesterday we were in this room describing is it glacial pace, 
biblical pace.
    Quickly, to most people, means relatively short time; few 
weeks, maybe month. And to continue this process to keep 
looking reminds me of the story that was told just the other 
day by another member about four frogs on a log, three decided 
to jump off, how many were left on the log? Four, because only 
three decided to; they didn't do anything.
    And that is exactly your answer just a moment ago described 
that perfectly: well, we are looking at it, we are looking to 
see what is the best bet, we are going to try, we are looking 
again, we will make a decision. But we never seem to get to the 
decision. And I think that is the concern for this hearing and 
looking at it.
    Then what was really interesting was is your discussion 
right then discussed the new technologies coming out in spite 
of the inactivity and in spite of everything, or maybe because 
of. So maybe it is a backward twisted mentality to say, if we 
don't do anything, all these folks are going to go out there, 
be so frustrated they are going to come up with something else.
    And we can talk about fuels and the footprints that were 
discussed, but there is also another aspect to this, and this 
is a question from my area dealing especially with poultry and 
dealing with others, is the cost aspect. We have not talked 
about numbers and, again, I have really not heard a good reason 
why. It was amazing to me you said that this past summer we 
completely reworked how we were looking at this. Well, this is 
not like it has been working. It has not been working for a 
long time, so we stopped to figure out how we can get more 
processed.
    The brokenness of this system is just amazing. But when you 
look at the brokenness and why it is broken, and the effects it 
has on other industries, not just this side, you know, from 
just my area, Georgia, there are 102 counties in Georgia which 
produce more than $1 million of poultry at the farm level, at 
the absolute farm level, 47 percent. It is the largest segment 
of Georgia's agriculture. Thirty-eight billion is poultry's 
annual contribution to Georgia's economy from farms, 
processing, further processing, and satellite businesses. A 
hundred and thirty-eight thousand jobs depend on the poultry 
industry, whether indirectly or directly. And then there comes 
this: $44 billion is the higher actual feed cost producers have 
incurred due to RFS.
    The problem that we are seeing here and the problem that I 
would like to understand is maybe the question is is there 
other impact decisions when dealing with RFS besides the very 
narrow tube of RIN and other things on that we produce? The 
impacts in other areas of the economy, is that even thought 
about? And especially your inactivity in being able to come 
forward with a standard.
    Ms. McCabe. Yes, Congressman, we absolutely understand that 
there are implications for this program to a variety of 
industries, and the poultry industry is certainly one, and 
other agricultural industries. That is one reason why there is 
such a divergence of views among the industry stakeholders on 
how EPA should proceed with this program. We are very mindful 
of those implications.
    Mr. Collins. Well, then at a certain point in time, at this 
point, the paralysis that is going on here through analysis and 
other decisions, and all the conflicting reports and Members of 
Congress--and I am not denying that--and interest groups, at a 
certain point in time there needs to be decisions made on when 
you sort of weights and balances, and I think that was 
discussed by Mr. Meehan as well, the carbon footprint is 
actually larger, there are other issues here.
    Why are we continuing down a path in which we are charging 
more to put in our mouth and trying to fix what we are putting 
in our car? That is the problem that I am having a hard time 
understanding. We want to help average Americans who are 
struggling when their food costs are going up, and we are 
trying different ways that actually are struggling in their gas 
tank. The only thing that I have frankly seen that RFS standard 
actually does is help small engine repair. Because you want to 
screw up a small engine? Put the ethanol in it and let it sit. 
So small engines are flourishing.
    But past that you are hurting agriculture, you are hurting 
poultry, you are hurting livestock, you are hurting those who 
want to get into this industry maybe to investments who say we 
want to find cleaner energies, we want to find cleaner 
alternatives. But going through this process it would be hard 
for an investor to sit there and look at maybe these newer 
technologies that are developing when they look at this process 
and say it is so broken.
    What do you say to those who may side on the fact we need 
to focus more on the environmental protection side of it and 
maybe not the economic impact? What do you even say to them to 
say, well, don't worry, we will get our act together so that we 
can actually give you some help?
    Ms. McCabe. Well, our job, Congressman, is to implement the 
statute that Congress passed using the authorities that are in 
it, and that is what we are trying to do to the best of our 
ability, balancing all of these factors. Congress set certain 
volumes that the agency is supposed to implement unless we find 
that one of the reasons is present that we can exercise the 
waiver authority. And that is what we propose to do and those 
are the issues that have been discussed over the last year, and 
those are the issues that need to be resolved, and we intend to 
do that.
    Mr. Collins. Well, I think that is the other issue in 2008 
and 2012 as well, also, was the supposed off-ramps during the 
economic crisis, things like that, that would help some of 
these producers and, again, just basically got passed over due 
to other concerns. I think that is the part for the workers, 
for the agriculture community, for the others. We can have the 
conversation about the standards. I think the interesting point 
of what you just said, though, is you are tasked to make a 
decision. There is nowhere probably in that law that says task 
if you can come up with a consensus; task if you can think 
about it; task if you.
    That is the problem that people have with this city. They 
don't get it. They view bills like this as job creation for 
people inside the Beltway. It is job creation. We will farm 
this out; we will council this; we will get a consultant here; 
we will get another economic report.
    And it all works great inside the Beltway, but to the 
farmer paying and to poultry farms, and for full disclosure, my 
wife and her sister still run their daddy's chicken farm, and I 
have other folks in the 9th District who run a lot more 
poultry. When you get to them and their costs are going up, 
their costs are rising and their pay is not going up, that is 
the problem. The inactivity costs you more than a hearing; it 
costs people jobs, it costs people's lives, and it changes 
their input. That is what is broken about the system. 
Inactivity is no excuse any longer. It is time to make a 
decision.
    Mr. Chairman, I yield back.
    Mr. Lankford. Ms. McCabe, can I ask about 2016? This is a 
big issue for us. Obviously, the reset is coming, 2016. You 
know in the statute full well if there are 2 years prior to 
that where there is a reduction of 20 percent or more, 50 
percent or greater, there is a reset that is built into this. 
How is that factoring into your decisions for 2014 and 2015 and 
the delay? Is that in the back of your mind at this point, 
saying 2016 is almost here, we have to make sure 2014 and 2015 
are right because there is an impact on that?
    Ms. McCabe. Well, Congressman, I believe, and I will 
confirm with my colleague here, so the statute says that the 
first year we could effectuate a reset is after 2016, so that 
would be 2017.
    Mr. Lankford. Right.
    Ms. McCabe. So as we are looking at 2016 and as we are 
looking at 2014 and 2015, of course, we are very mindful of 
those triggers, and thinking about--really, I said before that 
we have sort of a continual effort to be thinking about this 
program and trying to think far ahead. So, yes, we are thinking 
about the implications for our obligations under a reset 
scenario.
    Mr. Lankford. Quick clarification, then I am going to yield 
to the ranking member. When you are talking about 2015, 2016, 
is that calendar year or the RFS year? How are you defining 
that? Or fiscal year? So when you look at that, as far as 
determining we have the reset time coming based on the two 
previous years, how are you defining previous years?
    Ms. McCabe. The RFS year is the calendar year.
    Mr. Lankford. OK. But what I am trying to figure out is you 
are looking at it right now setting the 2015 number. Before you 
set the 2017, you are actually doing that in 2016, 2015.
    Ms. McCabe. Right.
    Mr. Lankford. How are you evaluating that for when that 
decision has to be made?
    Ms. McCabe. In 2015, we intend to set the volumes for the 
years 2014, 2015, and 2016. So we would not be doing a reset in 
any of those 3 years.
    Mr. Lankford. But then would assume that would occur, then, 
in 2016 you would the following year.
    Ms. McCabe. For the 2017 year.
    Mr. Lankford. So by November the 30th, 2016, you would set 
and the reset would be complete for 2017 and on.
    Ms. McCabe. That is my understanding of the schedule that 
would be required.
    Mr. Lankford. Thank you.
    Let me yield to the ranking member.
    Ms. Speier. Mr. Chairman, thank you.
    Ms. McCabe, I know you are a person of goodwill, and this 
hearing was an effort to try and illuminate where some of the 
problems areas are and to get us focused on fixing them. I, 
frankly, don't think we have achieved that goal. I would really 
encourage you to provide us with some kind of a document that 
spells out what you need in order to do your job, because it is 
not getting done.
    And there is a lot of frustration by those who are trying 
to play by the rules of this law. We want this law to work, 
and, if it doesn't work, the 20 or so bills that have already 
been introduced to repeal it or modify it are going to gain a 
lot more traction. So help us help you do your job.
    With that, I yield back, Mr. Chairman.
    Unfortunately, I have to leave, and I thank you very much 
for being here.
    Ms. McCabe. Thank you.
    Mr. Lankford. I have a couple quick questions, then we are 
going to close up in a moment as well.
    I don't know of a single agency that doesn't plan and 
prepare and doesn't have targeted time lines. This is the 
decision that needs to be made: we are going to have a draft by 
this point; we are going to have 3 months with the draft; we 
are going to send it to OMB and OIRA to take a look at it; we 
are going to evaluate it from there; they are going to get it 
back to us by this time period. Every single one of these 
decisions has time lines.
    What I find unrealistic is for you to say to us we don't 
have any; it will be sometime in 2015. We all know better. 
There is a document that you all have worked through setting 
time lines when this decision is going to be made, when 
comments are going to be closed, when we are finished replying 
to comments, when OIRA is going to sign off. All those things 
exist. We are just asking a simple question: What is the date? 
Even if it is just the date that you are sending it to OMB and 
OIRA to look at, what is the date?
    Ms. McCabe. In all honesty, Congressman, that document for 
this rulemaking does not exist at this time because we are in 
the process of figuring out what that schedule will be.
    Mr. Lankford. So you are saying you have looked at this for 
2 years and there is no time line of when you will make this 
decision?
    Ms. McCabe. We made the decision in late November that we 
were not able to finalize this year. That is causing us to re-
look at our schedule and the anticipated work that we need to 
do in order to finalize 2014 and also accomplish 2015 and 2016 
in the next calendar year.
    Mr. Lankford. So in June 2013, when Mr. Grundler was in 
front of this same committee, the conversation was we are going 
to have a proposed rule out for 2014 and get it out, and that 
occurred.
    Ms. McCabe. Yes.
    Mr. Lankford. So that means at least before that was 
leading up there was conversation about what that would be, and 
then for an entire year of that. So you are saying there is no 
time line, this is just floating out there for at least since 
June 2013 on when the time line to finalize 2014 would be.
    Ms. McCabe. Our intent was to finalize the rule as quickly 
as we could, and we found that we were unable to do so for all 
the reasons that we have discussed today.
    Mr. Lankford. But that means there was never a plan to 
finalize this. I don't mean to be caustic on it. If there is no 
time line and there is no goal written anywhere, it is a we 
will get to it when we get to it; there is really no plan. And 
to say 2015 is not acceptable when we are over a year late for 
2014 and we are already late for 2015. And to say we will make 
sure we get 2016 on time is tough to swallow.
    Ms. McCabe. I appreciate the frustration you are 
expressing, Congressman. I can assure you this is not a we will 
get to it when we get to it effort.
    Mr. Lankford. Well, if there is no plan and there is no 
deadline, other than sometime in 2015, for something that was 
due a year ago, there is no sense of urgency to get this done.
    Let me shift subject, because I hear where you are at. We 
are not going to get a date.
    There was a study that came out, Northwestern University 
and the University of Singapore, studied through San Paolo, 
Brazil and the shift that they made in ozone. You may be very 
familiar with this. I know you are very familiar with all the 
ozone issues as well. With the new ozone regulations that are 
coming out and that are being proposed by the Administration, I 
have some concerns; and this comes from several articles dated 
from April of this year.
    When they studied what happened when there was a shift to 
using ethanol in San Paolo in that environment, they saw a rise 
in ozone. Their hypothesis they have in great detail, the 
scientific research they did on it, and how ethanol reacts 
different in the environment than does traditional gasoline, 
and the ethanol actually increased ground level ozone.
    Now, the concern is, as we lean into E15 and E85, at the 
same time the Administration is also focusing on ground level 
ozone, we may have a causal effect between the two here if this 
really holds to be true in the research. Are you familiar with 
this and are tracking this at all?
    Ms. McCabe. I am definitely familiar with the issue about 
NOx emissions related to ethanol, yes.
    Mr. Lankford. What is your concern on that?
    Ms. McCabe. Well, I would go back to the point of the real 
emphasis of the renewable fuel standard increasing volumes of 
these advanced fuels that are particularly beneficial for the 
environment. I think it is an issue that we need to be very 
mindful of. Ozone is a complex pollutant that is affected by a 
number of factors, and we spend a lot of time looking at 
expected ozone levels, running models that can adjust for the 
complicated chemistry in light of various expectations about 
emissions that would be existing in different areas. So it is 
an issue that we definitely have on our radar screen.
    Mr. Lankford. So NOx-based for ground level ozone, sugar-
based, corn-based ethanol has a greater effect on ground level 
ozone than does some of the advanced, is that what you are 
saying?
    Ms. McCabe. I don't know that I am comfortable answering 
that question exactly as you have asked it, Congressman, 
because I think there are a lot of factors that come into play.
    Mr. Lankford. But this is an issue that some types of 
ethanol do increase ground level ozone.
    Ms. McCabe. There can be an increase in NOx emissions.
    Mr. Lankford. Right. Which affects the ozone.
    Ms. McCabe. Which can affect ozone, yes.
    Mr. Lankford. OK. So somehow we have to figure out how we 
have a mandate over here to increase ethanol usage and we have 
a mandate over here to bring down ozone when this could help 
cause some of this and at least be a factor in part of it, and 
we have competing priorities here coming from the Federal 
Government.
    Ms. McCabe. Well, an important factor is the scale of what 
we are talking about here, the contributions that might come 
from ethanol compared to the pool of NOx emissions from a 
variety of sources.
    Mr. Lankford. Sure. But if the Federal Government plans to 
tell certain manufacturers you have to manufacture different, 
when at the same time encouraging NOx emissions in other ways 
based on another mandate, we have a problem, because this 
manufacturer is now spending more money for this and the gas 
station is now spending more money to put in a certain tank to 
be able to drive a certain vehicle that actually does increase 
NOx. You see what I am talking about? This, at some point, 
makes every person that does electricity or does any kind of 
manufacturing, their head spin, to say how can the Federal 
Government require both of these.
    Ms. McCabe. I just point out again that what we are doing 
in this program is implementing Congress's statute.
    Mr. Lankford. So this is clearly an error we have to get 
back to statute on. I would say to you we are not going to let 
go of this. Obviously, Ms. Speier and I are very, very 
passionate about this, as are a lot of folks that were not here 
on the dais based on other meetings that are happening today. 
This is a very big issue that we have got to get some certainty 
on, and 2015 sometime I think is 2015 November 30th. I think 
that is the real date that is hanging out there, and I think 
that is an even bigger problem when we are 2 years late on 2014 
and a full year late on 2015; 2016 comes out and then 
immediately followed by a reset for 2017.
    I think the Administration is holding on to this and I 
think that is a problem. And what I am telling you is we are 
not going to let go of this. It is the responsible thing to do 
to hit the deadlines and be able to get it out and provide some 
stability into the market what is required, and what has been 
requested and what was considered in law at the very beginning 
when this was done.
    So I really thank you for being here and for answering the 
questions that you could or would answer for us, and we will 
continue to followup in the days ahead. Thank you, Ms. McCabe.
    Ms. McCabe. Thank you.
    Mr. Lankford. This hearing is adjourned.
    [Whereupon, at 11 a.m., the subcommittee was adjourned.]

                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
